No. 21-

SUPREME COURT OF THE UNITED STATES

CHRISTOPHER N. BROWN- Petitioner,
v.

STATE OF FLORIDA - Respondent.
CASE No.: 1D18-5205
PROOF OF SERVICE
I, Christopher N. Brown, do swear or declare that on this date,
March 9, 2021, served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by handing over
an envelope containing the above documents to prison officials for
mailing in the United States Postal Service and are properly addressed
to each of them and with first-class postage prepaid. The names and
addresses of those served are as follows: The Office of the Attorney
General, Department of Legal Affairs, The Capitol, PL-01, Tallahassee,
Florida 32399-1050. I declare under penalty of perjury that the forgoing
is true and correct.
Executed on March 9, 2021.
'41
Christopher N. Brown, DC# 890988
Petitioner, pro se
Graceville Correctional Facility
Provided to Graceville Correctional Fapfoty on
for mailing, by
(>r?---- _•
5168 Ezell Road
Graceville, Florida 32440-2402

RECEIVED
MAR t 7 2021

